   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




November 16, 2010

TO:            Yolanda J. Butler, Ph.D.
               Acting Director, Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Municipality of Bayamón
               (A-02-10-02016)


The attached final report provides the results of our Results of Limited Scope Review at
Municipality of Bayamón.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-10-02016 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     RESULTS OF LIMITED
      SCOPE REVIEW AT
   MUNICIPALITY OF BAYAMÓN




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-02-10-02016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                            INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies 1 (agencies) that create, coordinate, and deliver programs and services to low-
income Americans. These agencies provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to Agencies using the existing statutory formula.

Puerto Rico Department of the Family

The Puerto Rico Department of the Family (the department) acts as the lead agency for purposes
of carrying out the Commonwealth of Puerto Rico’s activities for the CSBG program. The
department is responsible for approving Commonwealth agencies’ Recovery Act grant
applications, and monitoring the agencies for compliance with program regulations. For fiscal
year (FY) 2009, the department was awarded an additional $42,122,412 in Recovery Act funds
for the Commonwealth’s CSBG program.

Municipality of Bayamón

The Municipality of Bayamón is the second most populated city in Puerto Rico. The city
provides public safety, public works, culture, recreation, health and welfare, education and other
government services. For FY 2009, the department awarded Bayamón $1,853,385 in additional
CSBG Recovery Act funds.

Requirements for Federal Grantees

Pursuant to 45 CFR Part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of

1
 Community Action Agencies are non-profit private and public organizations established under the Economic
Opportunity Act of 1964 to fight America's War on Poverty.



                                                      1
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. The CSBG Act establishes the CSBG program and sets the requirements and
guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Bayamón’s financial viability, capacity to manage and account
for Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of the Municipality’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of Bayamón’s internal control structure. Rather, we reviewed only the internal
controls that pertained directly to our objective.

We performed our fieldwork at Bayamón’s municipal office in Bayamón, Puerto Rico, during
September 2010.

Methodology

To accomplish our objective, we:

        •   confirmed that Bayamón is not excluded from receiving Federal funds;

        •   reviewed relevant Federal laws, regulations, and guidance;

        •   reviewed Bayamón’s application and implementation of the grant award for the
            Recovery Act funding;

        •   reviewed Bayamón’s policies and procedures related to the CSBG program;

        •   reviewed Bayamón’s CSBG Compliance Board meetings, the composition of the
            board, and organizational chart;

        •   performed audit steps to assess the adequacy of Bayamón’s current financial systems;
            and,



                                                2
       •   reviewed Bayamón’s audited financial statements and supporting documentation for
           the period October 1, 2006 to September 30, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Based on our assessment, Bayamón is financially viable, has the capacity to manage and account
for Federal funds, and is capable of operating the CSBG program in accordance with Federal
regulations. Accordingly, this report has no recommendations.




                                               3
